July 31, 2009

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Air Networks – Federal Express
         Transportation Agreement – Southeast Area
         (Report Number NL-AR-09-007)

This report presents the results of our self-initiated audit of the Federal Express (FedEx)
transportation agreement. The objectives of our audit were to determine whether
selected transportation operations were effective and economical (Project Number
09XG013NL000). See Appendix A for additional information about this audit.

Conclusion

It was more effective and economical in some cases for the Southeast Area to use
ground transportation and domestic air carriers and sort mail at U.S. Postal Service
plants than to use FedEx for these functions. Because the area used FedEx, the U.S.
Postal Service incurred about $8.6 million in unnecessary costs. If the Southeast Area
implements our recommended changes, we estimate the Postal Service could save
$43.4 million over a 10-year period.

Transporting Surface Mail on FedEx Day Turn1

We concluded that using ground transportation was more advantageous than using
FedEx in some cases. Transporting surface mail by FedEx costs the Postal Service
about $7.5 million more than necessary for October 1, 2006, through September 30,
2008. This occurred because plant employees did not properly segregate surface mail
classes (Periodicals, Standard Mail, and Package Services) from First-Class Mail® and
Priority Mail®. By using ground transportation, the Postal Service could lower overall
FedEx lift requirements and save about $32.1 million over 10 years. See Appendix B
for our detailed analysis of this topic.




1
    FedEx Day Turn operations are principally for transporting First-Class Mail and Priority Mail during daytime hours.
Air Networks – Federal Express Transportation Agreement –                      NL-AR-09-007
 Southeast Area




We recommend the Vice President, Southeast Area Operations:

1. Use surface transportation to the extent possible for mail that does not require air
   transportation to meet Postal Service on-time standards.

Management’s Comments

Management agreed with our finding and recommendation. Management stated that in
most cases it is less expensive to transport Periodicals and Standard Mail on surface
transportation than on FedEx. Management stated they will continue to follow
established Headquarters’ Network Operations transportation policy for these mail types
and provided a copy of a memorandum sent to the plant managers on May 29, 2009,
that reinforces the policy. In addition, management stated that distribution networks’
employees will review whether improper mail types are being improperly comingled with
First-Class Mail for air transportation when conducting site visits and will instruct their
terminal handling service (THS) liaisons to review tub and tray utilization for mail moved
on FedEx.

Management did not agree with our questioned costs and projected costs savings over
10 years. While management stated the savings would be much lower, they did not
offer a specific figure of what that amount should be. Management stated that Standard
and Periodical mail could only be handled or mishandled at the three Southeast Area
concentration points – Atlanta, GA, Memphis, TN, and Jacksonville, FL. Management
stated that it conducted a limited sampling of mail from one of its three concentration
points as evidence to support assertions concerning density and an alternative result.
Management also provided other examples of situations where it is more advantageous
to use FedEx than surface transportation for these mail types. Management’s initial and
amended comments, in their entirety, are included in Appendix E.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the finding and recommendation, and the corrective actions
taken should resolve the issues identified in the report. The OIG disagrees with
management’s reasoning regarding our monetary impact amounts and believe our
estimates to be valid based on the data used. While management stated that only three
origins in the Southeast Area have an opportunity to put surface mail classes on FedEx,
our on-site observations and inspections in FY 2009, as well as the most recently
available TRACS data, confirm otherwise. We observed many instances of Standard,
Periodical, and/or Package Services mail classes being prepared for and transported by
FedEx at other origins. Further, the limited sampling of outgoing mail and related
density at only one Southeast Area origin is not sufficient to dispute the overall findings
Air Networks – Federal Express Transportation Agreement –                        NL-AR-09-007
 Southeast Area

and monetary impacts. The intent of our recommendation is to reduce overall cubic feet
use on FedEx with fewer mail-piece tubs and trays.

FedEx Versus Passenger Airlines

When the Postal Service requires air transportation, we concluded it is more
advantageous in some cases to use passenger carriers rather than FedEx. From
October 1, 2007, through September 30, 2008, the Postal Service incurred $283,000 in
unnecessary costs to move XXXX cubic feet of First-Class Mail on FedEx from origins
in the Southeast Area. The Postal Service incurred the excess costs, because officials
did not plan to fully utilize less costly available commercial air transportation. The
Southeast Area could save about $2.5 million over a 10-year period by maximizing the
available capacity of passenger airlines under Postal Service domestic air transportation
contracts. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Southeast Area Operations:

2. Transport mail to the maximum extent possible using the service-responsive
   capacity of passenger airlines under contract with the Postal Service.

Management’s Comments

Management agreed with our finding and recommendation. They stated that using
domestic air carriers is more cost-effective and economical than using FedEx.
Management provided a copy of a memorandum sent to plant managers to reiterate the
policy to utilize commercial air to the maximum service responsive capacity.
Management also stated that they will monitor weekly Headquarters’ Network
Operations reports that track commercial air lift and volumes, as well as monitor weekly
reports that list all activity of modifications to air routes, in order to ensure maximum use
of commercial air.

Management commented that while commercial airlines have provided capacity, they
have found in numerous situations that capacity required by the Postal Service and the
capacity offered by commercial airlines are not aligned. Management cited challenges
with Postal Service data systems; contingency measures placed on them by
Headquarters’ Network Operations to fill FedEx matrix commitments; inconsistent or
nonresponsive service offered by the current commercial air suppliers; the need to
reassign mail to FedEx due to inadequate commercial air lift; and other issues. Finally,
management stated that they do not agree that local officials were not always following
mail assignment priorities or that local managers changed prioritization codes for mail
assignment.

Management did not agree with our questioned costs and projected cost savings over
10 years. Management made several attempts to recreate our calculated questioned
costs but the attempts resulted in different amounts that were inconclusive.
Air Networks – Federal Express Transportation Agreement –                                            NL-AR-09-007
 Southeast Area




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the finding and
recommendation and the corrective action should resolve the issues identified in the
report. We agree that management must consider service, timeframes, and capacities
when assigning mail to commercial air transportation, and the Southeast Area should
continue to work diligently with Headquarters’ Network Operations to address capacity
issues with commercial airlines in order to maximize their use.

Regarding management’s comment on not following mail assignment procedures, we
revised the statement in the report to better clarify our point. The report now states the
Postal Service incurred the excess costs because officials did not plan to fully utilize
less costly available commercial air transport. We recognize that local officials no
longer readily have the ability to change planned routings once established, even
though they are able to modify active routings on a daily basis. However, the Postal
Service established a system for assigning mail to ensure that it moves on intended
routes, based on availability, service and cost. We recognize that issues can occur in
the assignment process, but the Postal Service has procedures in place to address and
correct the process and address issues. Any routing adjustments to use other, more
costly, transportation should be made when it is clearly documented and determined
that stated commercial air capacity is not always available or responsive.

Finally, regarding our calculations, we analyzed capacity by lane, considered continued
commercial carrier service in projecting our reported savings, and believe our
projections are valid based on the data used.

Mixed Versus Bypass Air Containers

Finally, in some cases it was more advantageous for the Postal Service to sort mail than
to have FedEx sort it. During the period October 1, 2007, through September 30, 2008,
the Southeast Area unnecessarily spent about $895,000 to have FedEx sort mail. The
Postal Service incurred this expense because the Southeast Area processing plants did
not separate mail and distribute it in bypass containers.2 If the Southeast Area properly
sorts and distributes this mail, the Postal Service could avoid about $8.8 million in
unnecessary costs over 10 years. See Appendix B for our detailed analysis of this
topic.

We recommend the Vice President, Southeast Area Operations:

3. Sort mail into bypass containers as appropriate.


2
 Bypass containers contain mail for specific destinations that do not need to be sorted by FedEx in Memphis, TN, for
onward transportation.
Air Networks – Federal Express Transportation Agreement –                      NL-AR-09-007
 Southeast Area



Management’s Comments

Management agreed with our finding and recommendation. They stated that it is more
effective and economical for the Postal Service to perform distribution functions than
FedEx. In their response, management provided a copy of a memorandum sent to
plant managers to reiterate the policy to utilize by-pass containers, while minimizing the
use of mixed containers. Further, management stated that local Postal Service liaisons
are working daily with THS suppliers to ensure mail is loaded into appropriate bypass
containers wherever possible; that they are monitoring daily reports for any unusual
high conversions of bypass to mixed containers; and that they are reviewing upcoming
FedEx bypass schedules to ensure the number of bypass containers are warranted.

Management included examples of circumstances that support the use of mixed
containers instead of by-pass containers, including insufficient/excessive mail volumes;
processing facilities being too small to make planned separations; the exact times that
mail must be tendered; and the 6-month FedEx matrix planning cycle. Management
stated that they believe this policy is adhered to the highest degree possible, but agreed
to continue to monitor the policy for improvement.

Management did not agree with the unnecessary costs and projected cost savings over
10 years, but offered no alternative amounts.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the finding and
recommendation, and the corrective action should resolve the issues identified in the
report. Regarding management’s comments on circumstances that support the use of
mixed versus bypass containers, the planned FedEx matrix sets goals for bypass
containers tendered to FedEx in order to avoid added sorting costs. To accommodate
the plans, local officials should have and enforce established processes to meet plans.
Our review determined that the established process was not always followed and
resulted in unnecessary sorting. We observed many instances where mail did not arrive
at the THS sites at scheduled times, resulting in conversions from bypass to mixed
containers. In addition, we observed mail destined for locations where containers were
in place for bypass mail, but the mail arrived in mixed containers.

Regarding our monetary impact, our analysis of mail pieces took into consideration the
conversion criteria and excessive volumes, and we believe our estimates are valid
based on the data used.

Additional Management Comments

Overall, management did not agree with the questioned costs and funds put to better
use included in our report and stated the amount in potential savings is too high.
Air Networks – Federal Express Transportation Agreement –                      NL-AR-09-007
 Southeast Area

Management stated that the Postal Service is faced with sharply declining volume and
the entire transportation network was built over the years based on increased volume.
Management further stated the Postal Service is removing pieces of transportation but it
must still maintain service. Management stated that since volume plays an important
part in the issues identified, it should be noted that as volumes continue to drop, the
transportation network and current procedures will change.

In summary, however, management stated their corrective actions should produce
positive results by the end of the FY and greatly reduce or eliminate the exposure of the
Area to any funds wasted due to non-compliance for the three issue areas identified in
the report.

Evaluation of Management’s Additional Comments

Management did not provide supporting documentation for the amounts it disagreed
with or for its alternate estimates. We acknowledge management’s comments
regarding declining mail volume and recognize the corrective actions to reduce or
eliminate non-compliance. Our estimates considered volumes, including any declines,
during the period audited (October 2006 through September 2008). These estimates
are based on the best available data and assume continued average volume levels for
the period audited. We will continue working with management to reach agreement on
projected monetary impacts and close the significant recommendations.

We will report a total of $52,017,366 in monetary impact for the three findings in our
Semiannual Report to Congress, including $8,630,104 in questioned costs and
$43,387,262 in funds put to better use.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service follow-up tracking system until the OIG provides written confirmation that
they can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.



            E-Signed by Michael A. Magalski
           VERIFY authenticity with ApproveIt

For
Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area



Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Susan Brownell
    Jordan M. Small
    Cynthia F. Mallonee
    Katherine S. Banks
    Bill Harris
Air Networks – Federal Express Transportation Agreement –                    NL-AR-09-007
 Southeast Area

                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In January 2006, the Postal Service formalized a nationwide integrated air strategy and
briefed the Board of Governors. Management explained that passenger airlines were
less costly, but also less reliable, than other air transportation contractors such as
FedEx. Under the strategy, the Postal Service intended to reduce reliance on
passenger airlines; expand existing air transportation with FedEx and other air cargo
carriers; and, where possible, shift mail moved by air to less costly ground
transportation. Officials emphasized that the integrated air strategy would increase air
carriers’ on-time performance, create air network redundancy, improve flexibility,
enhance security, and reduce costs by making contracting more competitive and
allowing the Postal Service to eliminate infrastructure.

Passenger Airlines – On June 30, 2006, when the Postal Service’s transportation
contracts with passenger airlines expired, they discontinued using most passenger
airlines as domestic air transportation contractors. On September 29, 2006, the Postal
Service announced new air transportation contracts with select passenger airlines. The
Vice President, Network Operations, explained that reliance on passenger airlines with
established records of performance would help the Postal Service achieve on-time
delivery and provide higher levels of service with its new contracts.

        Postal Service officials
       explained that American
        Airlines is a passenger
         airline with a reliable,
         on-time performance
          record. The agency
         awarded the airline a
         contract to continue
           providing service.

       American Airlines jet at
        Tampa International
        Airport, February 25,
                2009.


The FedEx Contract – On August 2, 2006, the Postal Service announced it had
truncated the original 2001 contract with FedEx and signed a new 7-year agreement.
The new agreement specified an immediate price reduction in all contract categories
and allowed the Postal Service to continue to outsource THS contractors.
Air Networks – Federal Express Transportation Agreement –                      NL-AR-09-007
 Southeast Area



         On July 31, 2006,
        the Postal Service
          signed a new
        7-year agreement
           with FedEx.

        The air container
          pictured in the
         foreground was
      designed to be loaded
       onto FedEx aircraft.


The Postal Service transportation network currently uses THS contractors to prepare
and load mail into containers and onto FedEx planes. The contractors for Southeast
Area THS operations are Cargo Force, Inc.; Integrated Airline Services, Inc.; and
Quantem Aviation Services, Inc.

Under the FedEx contract, the Postal Service periodically negotiates with FedEx for mail
transport capacity. As a contract minimum, the Postal Service must use 95 percent of
the contracted capacity or pay for it regardless.

OBJECTIVES, SCOPE, AND METHODOLOGY

This is the fifth in a series of reports on the FedEx transportation agreement. The
objectives of our audit were to determine whether selected transportation operations in
the Southeast Area were effective and economical.

To conduct our work, we visited various facilities and operations in the Southeast Area,
including airport mail centers; THS operations; and mail processing facilities in Atlanta,
GA, as well as in Jacksonville, Fort Lauderdale, Miami, Orlando, West Palm Beach, and
Tampa, FL.

We interviewed officials from Postal Service Network Operations and the Southeast
Area. We also interviewed Postal Service contractors, including officials from FedEx,
Cargo Force, Inc., Integrated Airline Services, Inc., and Quantem Aviation Services, Inc.
We evaluated the types of mail transported, considered on-time service standards,
analyzed alternate solutions for making the best use of surface and air networks, and
observed and photographed operations.
Air Networks – Federal Express Transportation Agreement –                   NL-AR-09-007
 Southeast Area




 The Postal Service outsources THS
 operations to contractors, who build
and tender air containers to FedEx for
           transportation.

   FedEx containers loaded by THS
    operations for tender to FedEx,
             Orlando, FL.




We also examined relevant documents, including:

   •   The Postal Service Integrated Air Strategy, dated January 9, 2006.

   •   The FedEx contract dated January 10, 2001 and the extended FedEx contract
       dated July 31, 2006.

   •   Postal Service contracts with various passenger airlines.

   •   Contracts with THS providers.

   •   Postal Service policies that govern network routing and on-time standards.

We examined computer-generated data from October 2006 through September 2008 to
analyze mail volume, operational efficiency, and costs. We did not audit or
comprehensively validate the data; however, the large amounts of data and its
inaccessibility significantly constrained our work. Extracting more current data during
the audit would have delayed our work.

To address these data limitations, we applied alternate audit procedures. We discussed
the data with Postal Service officials, managers, supervisors, employees, and
contractors; we conducted source document examinations; and we observed and
conducted physical inspections. We also discussed our initial findings and
recommendations with senior Postal Service officials, considered their perspective, and
included their comments where appropriate.

We conducted this performance audit from January through May 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
Air Networks – Federal Express Transportation Agreement –                            NL-AR-09-007
 Southeast Area

and conclusions with management officials on April 28, 2009 and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

                                            Report                                Monetary
             Report Title                                   Final Report Date
                                            Number                                 Impact
Air Networks – Issues In the Pacific
Area Associated with a Major Postal      NL-AR-08-001       November 23, 2007    $80.4 million
Service Customer
Air Networks – Federal Express
Transportation Agreement – Pacific       NL-AR-08-002       February 19, 2008    $62.8 million
Area
Air Networks – Federal Express
Transportation Agreement – Western       NL-AR-08-008       September 29, 2008   $141.3 million
Area
Air Networks – Federal Express
Transportation Agreement – Southwest     NL-AR-09-002         March 3, 2009      $53.3 million
Area


The reports listed above identified the same or similar issues identified in this report.
We identified FedEx operational efficiency opportunities in the Pacific, Western, and
Southwest Areas related to surface mail flown on FedEx, First-Class Mail flown on
FedEx, FedEx container capacity, and bypass container use. Management agreed with
our findings and recommendations in the Pacific Area, but had not validated all
monetary impact at the time of report issuance. In the Western and Southwest Areas,
management generally agreed with our findings and recommendations; however,
management did not agree with the total monetary impact savings.
Air Networks – Federal Express Transportation Agreement –                                          NL-AR-09-007
 Southeast Area

                                APPENDIX B: DETAILED ANALYSIS

Transporting Surface Mail on FedEx Day Turn

We concluded that using ground transportation was more advantageous for the Postal
Service than using FedEx in some cases. Data from the Postal Service’s fiscal years
(FY) 2007 and 2008 cost and revenue analyses and the Transportation Cost System
(TRACS) identified large volumes of surface mail3 transported using the FedEx Daytime
Network (Day Turn) from origins in the Southeast Area to destinations across the
country. Postal Service policy requires transportation managers to balance service and
cost. Because surface mail is not as time sensitive as Express, Priority, or First-Class
Mail, Southeast Area transportation managers could have met the Postal Service’s on-
time standards by using highway or rail transportation. By transporting surface mail on
FedEx the Postal Service spent about $7.5 million more than necessary, as shown in
Table 1.

                               Table 1. Excess Costs of Transporting Surface Mail
                                 on FedEx Day Turn during FYs 2007 and 2008

                      Fiscal                       Standard       Package        Total Cost
                                  Periodicals
                       Year                          Mail         Services       in Millions

                       2007         $1,254,150     $1,206,356       $798,201      $3,258,706

                       2008          1,664,543      1,221,170       1,308,420      4,194,133

                      Total         $2,918,693     $2,427,525     $2,106,621      $7,452,839

                 Note: We extracted information from Postal Service cost and revenue analysis data. All amounts
                 are rounded. For more details, see Appendix D.

The Southeast Area transported surface mail on FedEx and the Postal Service incurred
excess costs, in part, because employees at Southeast Area processing plants did not
properly segregate surface mail classes (Periodicals, Standard Mail, and Package
Services) from First-Class and Priority Mail during distribution operations. Specifically,
during our site visits to processing plants4 we observed plant employees placing surface
mail into First-Class and Priority Mail containers or sacks for transport by FedEx using
the Day Turn network. For example, at the XXXXXXXXXXXXXXXXXXXX A Processing
and Distribution Centers (P&DC), we observed that, during processing, employees
mixed Periodicals and Standard Mail with First-Class Mail in originating distribution
operations. See Appendix D for more details on the sites we visited.




3
  Surface mail includes magazines, advertising, and merchandise shipped by major mailers such as publishers,
catalog companies, or online retail companies
4
  Atlanta, GA P&DC and Logistics and Distribution Center (L&DC); North Metro, GA P&DC; Fort Lauderdale,
Jacksonville, South Florida, and West Palm Beach, FL P&DCs; Miami and Orlando, FL P&DC and L&DC
Air Networks – Federal Express Transportation Agreement –                                       NL-AR-09-007
 Southeast Area




 Standard Mail in First-Class Letter Trays and Periodicals in Flat Tubs destined for transportation on FedEx,
                Atlanta P&DC (February 11, 2009) and Jacksonville P&DC (February 23, 2009).



The Postal Service could lower overall FedEx lift requirements and save about $32.1
million over 10 years. See Appendix C for a breakdown of unnecessary costs and
potential cost avoidance.

FedEx Versus Passenger Airlines

It was more advantageous in some cases for the Postal Service to use domestic
carriers rather than FedEx. From October 1, 2007, through September 30, 2008, the
Postal Service incurred almost $283,000 in unnecessary costs to move 154,000 cubic
feet of First-Class Mail on FedEx from origins in the Southeast Area. The Postal
Service incurred the excess costs because officials did not plan to fully utilize less costly
available commercial air transport. See Table 2.

                        Table 2. Available Unused Capacity on Passenger Airlines
               Analysis of the Southeast Area – October 1, 2007 through September 30, 2008

                                               Unused Passenger
                          Southeast Area
                                               Airline Capacity in    Excess Costs
                          Point of Origin
                                                    Cubic Feet
                        Atlanta                           27,634          $86,765
                        Jacksonville                       6,345           19,185
                        Miami                             27,210           30,978
                        Mobile                             3,859           13,417
                        Orlando                           47,539           79,974
                        Tampa                             41,005           52,377
                         Total                           153,592         $282,696


Postal Service transportation managers told us that transportation on FedEx was the
most costly transportation mode, passenger airlines were less costly, and surface was
the least costly.
Air Networks – Federal Express Transportation Agreement –                          NL-AR-09-007
 Southeast Area

Management generally assigns First-Class Mail according to these priorities:

   •   The Postal Service uses surface transportation when distances allow that mode
       to meet on-time standards.

   •   The Postal Service uses passenger airlines because these carriers provide the
       least costly air transportation.

   •   The Postal Service uses FedEx when air transportation is required and capacity
       on passenger airlines or other commercial carriers is not available.

For First-Class Mail that requires air transportation, Postal Service processing plants
assign the mail to air carriers before dispatching it to airports. During five site visits to
THS operations at various airports, we observed First-Class Mail arriving from
processing plants and being routinely assigned to FedEx when FedEx contract
minimums had already been met and there was availability on less costly passenger
airlines.

We concluded that Southeast Area transportation managers have an opportunity to
meet on-time standards and save about $2.5 million over 10 years if they maximize the
available capacity of selected passenger airlines. See Appendix C for a breakdown of
unnecessary costs and potential cost avoidance.

Mixed Versus Bypass Air Containers

Finally, in some cases it was more advantageous for the Postal Service to sort mail than
to have FedEx sort it. During the period October 1, 2007, through September 30, 2008,
the Southeast Area unnecessarily spent about $895,000 to have FedEx sort mail at its
Memphis hub. The Postal Service tenders mail to FedEx in both bypass and mixed
containers.

   •   Bypass containers hold mail bound for the same destination airport.
       Consequently, when they arrive at the FedEx Memphis hub, the containers can
       bypass the FedEx sort operation and be transferred directly to planes departing
       the hub for final destination airports. Bypass containers move through the FedEx
       Memphis hub at no additional cost to the Postal Service.

   •   Mixed containers hold mail bound for various destination airports. Consequently,
       when they arrive at the FedEx Memphis hub, they must open the containers,
       remove the mail, and sort it before loading it onto departing planes. The Postal
       Service is required to pay FedEx for sorting mail at the hub.

The Postal Service’s contract with FedEx establishes mail sorting fees charged to the
Postal Service. During the analysis period, FedEx charged between XXXXXXXX cents
for sorting each sack, tub, tray, or similar mail handling unit. Sorting mail for one of the
Air Networks – Federal Express Transportation Agreement –                              NL-AR-09-007
 Southeast Area

largest FedEx air containers could cost more than $300 because those containers hold
up to XXX First-Class Mail letter trays.



    This picture shows a fully loaded FedEx air
   container prepared by THS officials in Tampa,
  FL, February 24, 2009. The container is about to
   be transported to the FedEx Memphis hub for
                      sorting.




The Postal Service contractors for most THS operations in the Southeast Area — Cargo
Force, Inc., Integrated Airline Services, Inc., and Quantem Aviation Services, Inc., —
load FedEx air containers for transport on FedEx aircraft. For many valid operational
reasons, the contactors cannot always load mail into bypass containers and, instead,
must load it in mixed containers. To balance service and cost, the Postal Service
establishes goals for bypass versus mixed containers. Our analysis of the Southeast
Area for the period October 1, 2007, through September 30, 2008, showed that the
Southeast Area achieved an average of 50 percent of planned bypass goals. See
Table 3.

           Table 3. Southeast Area – Planned and Actual Bypass Mail Sorted by FedEx
                          October 1, 2007 through September 30, 2008

                                                                          Planned Bypass
                                  Planned Bypass      Actual Bypass
              Point of Origin                                           Cubic Feet Achieved
                                     Cubic Feet        Cubic Feet
                                                                             (Percent)

            Atlanta, GA                1,694,379              800,677          47.25
            Jacksonville, FL           1,023,831              132,190          12.91
            Knoxville, TN                109,953               76,198          69.30
            Miami, FL                  2,473,535            1,584,671          64.07
            Orlando, FL                1,424,905              928,833          65.19
            Tampa, FL                  2,168,661              757,358          43.74
             Total                     8,895,264            4,471,221          50.27


Because Southeast Area operations did not meet planned container bypass cubic feet,
the Postal Service spent more than necessary to sort mail using FedEx. Our analysis of
FedEx scan data for the period identified more than XXXXXXXXXX mail bags, trays,
tubs, or other mail handling units that FedEx unnecessarily sorted. As a result, the
Postal Service paid FedEx about $895,000 more than needed.
Air Networks – Federal Express Transportation Agreement –                       NL-AR-09-007
 Southeast Area


   FedEx freight and U.S. mail conveyed through
      the FedEx Memphis hub sort operation,
                   April 20, 2005.

 FedEx charges the Postal Service for every sack,
      tub, tray, or other mail handling unit.

 Note that U.S. mail packages, Priority Mail sacks,
    and an overturned tub are being conveyed
   through the sort operation commingled with
                  FedEx freight.



This condition occurred because Postal Service mail processing plants did not:

   •   Adequately separate and identify bypass mail before sending it to the THS
       contractors.

   •   Dispatch mail to airports in time for THS contractors to place it into bypass
       containers. Officials at some THS sites we visited stated that mail routinely
       arrived late from local facilities and, as a result, containers were converted from
       bypass to mixed so they could be tendered on-time to FedEx.

If Southeast Area processing plants properly separate bypass mail and dispatch mail to
airports on time, the Postal Service could avoid about $8.8 million in unnecessary
sorting costs over the next 10 years. See Appendix C for details of unnecessary costs
and potential cost avoidance.
Air Networks – Federal Express Transportation Agreement –                                              NL-AR-09-007
 Southeast Area



                 APPENDIX C: SUMMARY OF UNNECESSARY COSTS AND
                   POTENTIAL COST AVOIDANCE IN SOUTHEAST AREA
                                FEDEX OPERATIONS

                Unnecessary Costs5 – October 2006 through September 2008

                                        Cost Category                                             Amount

      Cost to transport surface mail on FedEx Day Turn (FYs 2007 & 2008).                          $7,452,839

      Excess cost of First-Class Mail that could have been transported on
      less costly passenger airlines (FY 2008).                                                        282,696

      Avoidable sorting costs at the FedEx Memphis hub (FY 2008).                                      894,569

        Total                                                                                     $ 8,630,104

                             Potential Cost Avoidance (over 10 years)6

                                Method of Cost Avoidance                                Amount

                Moving surface mail on less costly surface
                transportation.                                                         $32,075,850

                Using commercial passenger airlines to move First-
                Class Mail when capacity exists and FedEx contract
                minimums have been met.                                                    2,512,856

                Avoiding FedEx sorting charges by maximizing plans
                to avoid charges and pursuing additional
                opportunities to further reduce charges.                                   8,798,556

                 Total                                                                 $ 43,387,262




5
 Unnecessary costs are unrecoverable questioned costs.
6
 Potential cost avoidance is funds put to better use. The standard OIG practice for calculations of this type employs
a 10-year cash flow methodology, discounted to present value by applying factors published by Postal Service
Headquarters Finance. Fluctuations in mail volume over time may affect the 10-year projection results.
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area

                       APPENDIX E: MANAGEMENT’S COMMENTS
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area
Air Networks – Federal Express Transportation Agreement –   NL-AR-09-007
 Southeast Area
